CERTIFICATE OF SERVICE
Case Docket# 20-6627

I Clarence B. Jenkins Jr.. Pro Se Petitioner served Petitioner Reply Brief for Case
Docket# 20-6627 on Attorney Tierney F. Dukes of Boykin & Davis Law Firm for
Respondents on January 29,2021 at PO Box 11844 Columbia, South Carolina 29211 by
certified mail of the U.S. Postal Mail.

January 29,2021
Clarence B. Jenkins Jr.
Clarence B. Jenkins Jr.
945 Wire Rd.
Neeses, South Carolina 29107
(803)263-4514
Upscale81 @vahoo.com
Pro Se Petitioner

